HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Maine for Fiscal Years 1989 Through 2000,"(A-07-05-00188)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Maine for Fiscal Years 1989 Through 2000," (A-07-05-00188)
October 18, 2005
Complete Text of Report is available in PDF format (710 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs claimed for Medicare reimbursement for FYs 1989 through 2000.  Blue Cross Blue Shield of Maine did not claim all pension costs that were allowable for Medicare reimbursement for FYs 1989 through 2000 because it did not claim pension costs in accordance with its Medicare contract.  Therefore, Maine underclaimed $171,674 of allowable pension costs for FYs 1989 through 2000.
We recommended that Maine revise its Final Administrative Cost Proposals to claim allowable Cost Accounting Standards pension costs of $171,674 for FYs 1989 through 2000.  Maine agreed with our finding.